March 24, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: The North American Mission Board of the Southern Baptist Convention v.
McRaney, No. 20-1158
Dear Mr. Harris:
I am Counsel of Record for Respondent, Will McRaney, in the above-captioned case.
Through prior Counsel of Record, Respondent waived his right to respond to the
Petition. On March 22, 2021, the Court requested a response to the petition, currently
due April 21, 2021.
I write to request a 30-day extension of time, to and including May 21, 2021, for
Respondent to file his brief in opposition. See S. Ct. R. 30.4. The requested extension
is warranted because I was only recently retained by Respondent and need additional
time to review the record and decisions below, and prepare the response to the
petition, given existing commitments to other matters.
Counsel of Record for Petitioner consents to the requested extension.
Thank you.
Sincerely,
Scott E. Gant
Scott E. Gant

